                        U.S. Department of Agriculture
                           Office of Inspector General
                           Financial Audit Operations




   Statement on Standards for Attestation
Engagements No. 16 Report on Controls at the
          National Finance Center




                                        Report 11401-2-11
                                          September 2011
                          United States Department of Agriculture
                                 Office of Inspector General
                                   Washington, D.C. 20250




DATE:         September 23, 2011

AUDIT
NUMBER:       11401-2-11

TO:           Jon M. Holladay
              Acting Chief Financial Officer
              Office of the Chief Financial Officer

ATTN:         Kathleen A. Donaldson
              Audit Liaison Officer

FROM:         Gil H. Harden /s/
              Assistant Inspector General
                for Audit

SUBJECT:      Statement on Standards for Attestation Engagements No. 16 Report on Controls at
              the National Finance Center


This report presents the results of our Statement on Standards for Attestation Engagements
No. 16 examination for the Department of Agriculture’s National Finance Center (NFC). Our
examination was conducted in accordance with Government Auditing Standards, issued by the
Comptroller General of the United States, and relevant attestation standards established by the
American Institute of Certified Public Accountants. This report contains NFC management’s
system description and assertion about whether the description is fairly presented and controls
are suitably designed and operating effectively to achieve control objectives stated in the
description throughout the period from October 1, 2010, through July 31, 2011. Additionally,
the report includes our unqualified opinion on NFC’s controls based on the criteria described in
its assertion. Furthermore, the report does not contain recommendations. The projection of any
conclusions based on our engagement to future periods is subject to the risk that changes may
alter the validity of such conclusions. This report is intended solely for NFC as well as user
entities of NFC payroll/personnel and/or application hosting systems during the specified period
and their independent auditors.

We appreciate the courtesies and cooperation extended to us by members of your staff during
this engagement.
Table of Contents

Executive Summary .................................................................................................1
Independent Service Auditors’ Report ..................................................................2
Abbreviations ...........................................................................................................5
Exhibit A: National Finance Center - Management’s System Description.......6
Exhibit B: National Finance Center - Management’s Assertion......................27
Exhibit C: Independent Service Auditor’s Description of Tests of the National
Finance Center Controls .......................................................................................29
Executive Summary
Statement on Standards for Attestation Engagements No. 16 Report on Controls at the
National Finance Center (Report 11401-2-11)

Results in Brief
This report presents the results of our Statement on Standards for Attestation Engagements
No. 16 engagement for the Department of Agriculture’s National Finance Center (NFC). Our
examination was conducted in accordance with Government Auditing Standards, issued by the
Comptroller General of the United States, and relevant attestation standards established by the
American Institute of Certified Public Accountants.

NFC provided us with a description of its payroll/personnel and application hosting systems for
the period from October 1, 2010, through July 31, 2011, included as exhibit A, and an assertion,
included as exhibit B, about the subject matter of our engagement. Our objectives were to obtain
reasonable assurance about whether, in all material respects, based on suitable criteria, (1)
management's description of NFC systems fairly presents the systems that were designed and
implemented throughout the period specified in the description; (2) the controls related to the
control objectives stated in the description of NFC systems were suitably designed throughout
the specified period; and (3) the controls operated effectively to provide reasonable assurance
that the control objectives stated in the description of NFC systems were achieved throughout the
specified period.

In our opinion, in all material respects, based on the criteria described in NFC’s assertion, the
description fairly presents NFC payroll/personnel processing and application hosting systems
that were designed and implemented throughout the period from October 1, 2010, to July 31,
2011. Also, in our opinion, the controls included in the description were suitably designed and
operating effectively to provide reasonable assurance that the associated control objectives
would be achieved from October 1, 2010, to July 31, 2011, if user entities effectively applied the
complementary controls contemplated in the design of NFC controls throughout this period.

Recommendation Summary
We do not make any recommendations in this report.




 Report 11401-2-11                                                                             1
Independent Service Auditors’ Report
To:     Jon M. Holladay
        Acting Chief Financial Officer
        Office of the Chief Financial Officer

Scope
We have examined the Department of Agriculture National Finance Center’s (NFC) description
of its payroll/personnel and application hosting systems throughout the period from October 1,
2010 to July 31, 2011, included as exhibit A, and the suitability of the design and operating
effectiveness of controls to achieve the related control objectives stated in the description. The
description indicates that certain control objectives specified in the description can be achieved
only if complementary user entity controls contemplated in the design of NFC controls are
suitably designed and operating effectively, along with related controls at NFC. We have not
evaluated the suitability of the design or operating effectiveness of such complementary user
entity controls.

NFC used subservice organizations to help support general controls related to payroll/personnel
processing and application hosting. The description in exhibit A includes only the controls and
related control objectives of NFC and excludes the control objectives and related controls of the
specified subservice organizations. Our examination did not extend to controls at the subservice
organizations specified in the NFC system description.

NFC’s Responsibilities
NFC has provided an assertion, included as exhibit B, about the fair presentation of the
description and the suitability of the design and operating effectiveness of the controls to achieve
the related control objectives stated in the description. NFC is responsible for preparing the
description and for the assertion, including the completeness, accuracy, and method of
presentation of the description and the assertion; providing the services covered by the
description; specifying the control objectives and stating them in the description; identifying the
risks that threaten the achievement of the control objectives; selecting the criteria; and designing,
implementing, and documenting controls to achieve the related control objectives stated in the
description.

Office of Inspector General’s Responsibilities
Our responsibility is to express an opinion on the fairness of the presentation of the description
and on the suitability of the design and operating effectiveness of the controls to achieve the
related control objectives stated in the description, based on our examination. We conducted our
examination in accordance with Government Auditing Standards issued by the Comptroller
General of the United States, and relevant attestation standards established by the American
Institute of Certified Public Accountants. Those standards require that we plan and perform our
examination to obtain reasonable assurance about whether, in all material respects, the
description is fairly presented and the controls were suitably designed and operating effectively




 Report 11401-2-11                                                                                2
to achieve the related control objectives stated in the description throughout the period from
October 1, 2010 to July 31, 2011.

An examination of a description of a service organization’s systems and the suitability of the
design and operating effectiveness of the service organization’s controls to achieve the related
control objectives stated in the description involves performing procedures to obtain evidence
about the fairness of the presentation of the description and the suitability of the design and
operating effectiveness of those controls to achieve the related control objectives stated in the
description. Our procedures included assessing the risks that the description is not fairly
presented and that the controls were not suitably designed or operating effectively to achieve the
related control objectives stated in the description. Our procedures also included testing the
operating effectiveness of those controls that we consider necessary to provide reasonable
assurance that the related control objectives stated in the description were achieved. An
examination engagement of this type also includes evaluating the overall presentation of the
description and the suitability of the control objectives stated therein, and the suitability of the
criteria specified by the service organization and described in exhibit B. We believe that the
evidence we obtained is sufficient and appropriate to provide a reasonable basis for our opinion.

Inherent Limitations
Because of their nature, controls at a service organization may not prevent, or detect and correct,
all errors or omissions in processing or reporting associated with NFC payroll/personnel and
application hosting systems. Also, the projection to the future of any evaluation of the fairness
of the presentation of the description, or conclusions about the suitability of the design or
operating effectiveness of the controls to achieve the related control objectives, is subject to the
risk that controls at a service organization may become inadequate or fail.

Opinion
In our opinion, in all material respects, based on the criteria described in NFC’s assertion in
exhibit B:

   ·   The description fairly presents the NFC payroll/personnel and application hosting
       systems that were designed and implemented throughout the period from October 1,
       2010, to July 31, 2011.

   ·   The controls related to the control objectives stated in the description were suitably
       designed to provide reasonable assurance that the control objectives would be achieved if
       the controls operated effectively throughout the period from October 1, 2010, to July 31,
       2011, and user entities applied the complementary controls contemplated in the design of
       NFC controls throughout the period from October 1, 2010, to July 31, 2011.




 Report 11401-2-11                                                                                3
     ·   The controls we tested, which were those NFC controls necessary to provide reasonable
         assurance that the control objectives stated in the description were achieved1, operated
         effectively throughout the period from October 1, 2010, to July 31, 2011.

Description of Tests of Controls
The specific controls tested and the nature, timing, and results of those tests are included in
exhibit C.

Restricted Use
This report, including the description of tests of controls and results thereof in exhibit C, is
intended solely for the information and use of NFC, user entities of NFC payroll/personnel
and/or application hosting systems during some or all of the period from October 1, 2010, to
July 31, 2011, and the independent auditors of such user entities, who have a sufficient
understanding to consider it, along with other information including information about controls
implemented by user entities themselves, when assessing the risks of material misstatements of
user entities’ financial statements. This report is not intended to be and should not be used by
anyone other than these specified parties.




Gil H. Harden /s/
Assistant Inspector General
   for Audit

September 22, 2011

Washington, D.C.




1
  In addition to the NFC controls we tested, the effective application of the complementary user entity controls
referred to in the scope paragraph of this report is necessary to achieve the related control objectives.




    Report 11401-2-11                                                                                              4
Abbreviations

CSAM ......................... Cyber Security Assessment and Management System
EmpowHR................... Human Capital Management System
NFC............................. National Finance Center
POA&M...................... Plan of Action and Milestones




  Report 11401-2-11                                                              5
The subsequent sections of the report exhibit A (pages 6
through 26), exhibit B (pages 27 and 28), and exhibit C
(pages 29 through 52) are not being publicly released due
to the sensitive security content.
